CREDIT CARD
ACCOUNT
OPENING
DISCLOSURE
CONNECT
This Disclosure is incorporated into and becomes part of Your LOANLINER® Consumer Credit Card Agreement &
Disclosure. Please keep this attached to Your LOANLINER Consumer Credit Card Agreement & Disclosure.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

8.250

%
This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

8.250 %
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

8.250 %
This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will
not charge You any interest on purchases if You pay Your entire balance by
the due date each month. We will begin charging interest on cash advances
and balance transfers on the transaction date.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
- Annual Fee

None

Transaction Fees
- Balance Transfer Fee
- Overdraft Transfer Fee
- Foreign Transaction Fee

None
$5.00
1.00% of each transaction in U.S. dollars

Penalty Fees
- Late Payment Fee

Up to $27.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)." See Your Account Agreement for more
details.
Billing Rights:
Information on Your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.
Military Lending Act Disclosures:
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions
of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent
may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or
account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the
credit transaction; any application fee charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a credit card account).
Please call us at (800) 888-7882 to receive oral disclosures of the Military Lending Act disclosure above and a description
of the payment obligation.
SEE NEXT PAGE for more important information about Your Account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

10200764-MXC20-C-4-120219 (MXC201-E)

Other Fees & Disclosures:
Late Payment Fee:
$27.00 or the amount of the required minimum payment, whichever is less, if You are 10 or more days late in making a
payment. If Your Account is subject to a Late Payment Fee, the fee will be charged to Your Account when You do not
make the required minimum payment by or within the number of days of the statement Payment Due Date set forth on this
Disclosure.
Overdraft Transfer Fee:
$5.00. If Your Account is subject to an Overdraft Transfer Fee, except as limited by applicable law, a fee may be charged
to Your Account each time, pursuant to any overdraft privilege on a Credit Union Share Draft Account, You overdraft Your
Share Draft Account and funds are advanced to Your Share Draft Account.
Pay-by-Phone Fee:
$15.00. If Your Account is subject to the Pay-by-Phone Fee, except as limited by applicable law, a fee will be charged for
each time You make a payment by telephone as disclosed on this Disclosure.
Rush Fee:
$33.00. If Your Account is subject to a Rush Fee, except as limited by applicable law, a fee may be charged to Your
Account for each rush Card that You request, providing that delivery of the Card is also available by standard mail service,
without paying a fee for delivery.
Collection Costs:
You agree to pay all costs of collecting the amount You owe under this Agreement, including court costs and reasonable
attorney's fees.
Periodic Rates:
The Purchase APR is 8.250 % which is a daily periodic rate of 0.0226 %.
The Balance Transfer APR is 8.250 % which is a daily periodic rate of 0.0226 %.
The Cash Advance APR is 8.250 % which is a daily periodic rate of 0.0226 %.
Variable Rate:
The ANNUAL PERCENTAGE RATE is subject to change monthly on the first day of the billing cycle to reflect any change
in the Index and will be determined by the Prime Rate as listed in the “Money Rates” section of The Wall Street Journal on
the day following a change in the index of each calendar month, to which we add a margin. The ANNUAL PERCENTAGE
RATE will never be greater than 29.99%. Any increase in the ANNUAL PERCENTAGE RATE will result in an increase in
the amount of the interest You will pay, may increase Your minimum payment, and may increase the number of payments
to pay off Your balance. If the Index is no longer available, the Credit Union will choose a new index which is based upon
comparable information.
Margin:
Purchases will be charged at 5.000 % above the Index.
Balance Transfers will be charged at 5.000 % above the Index.
Cash Advances will be charged at 5.000 % above the Index.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

10200764-MXC20-C-4-120219 (MXC201-E)

CONSUMER
CREDIT CARD
AGREEMENT
AND
DISCLOSURE
VISA SIGNATURE CONNECT REWARDS/CONNECT
This Consumer Credit Card Agreement and Disclosure together with the Account Opening Disclosure and any other
Account opening documents or any subsequent documents provided to You related to this Account (hereinafter
collectively referred to as “Agreement”) govern the terms and conditions of this Account. “We,” “Us,” “Our” and “Ours” and
“Credit Union” refers to Vantage West Credit Union with which this Agreement is made. “You,” “Your,” and “Yours” refers
to each applicant and co-applicant for the Account; any person responsible for paying the Account; and anyone You
authorize to use, access or service the Account. "Card" means the Visa® credit card and any other access devices,
duplicates, renewals, or substitutions, the Credit Union issues to You. "Account" means the line of credit established by
this Agreement and includes Your Card.
1. USING YOUR ACCOUNT — By using the Account or keeping the Card, You agree to the terms of this Agreement.
You agree to use Your Account in accordance with this Agreement. Your Account must only be used for lawful
transactions.
2. CREDIT LIMIT — We may establish a credit limit as part of this Agreement, which You promise not to exceed. If You
exceed the credit limit, You promise to repay immediately the amount which exceeds the credit limit, including amounts
due to finance charges, fees or other charges. You may request a credit limit increase on Your Account only by a method
acceptable to the Credit Union. We may increase or decrease Your credit limit, refuse to make an advance and/or
terminate Your Account at any time for any reason permitted by law.
3. REPAYMENT — Each month You must pay at least the minimum payment shown on Your statement by the date
specified on the statement. You may pay more frequently, pay more than the minimum payment or pay the total new
balance in full. If You make extra or larger payments, You are still required to make at least the minimum payment each
month Your account has a balance (other than a credit balance). For our Visa Signature Connect Rewards card, the
minimum payment is 3.00% of Your total new balance, or $30.00, whichever is greater, plus the amount of any prior
minimum payments that You have not made, all outstanding unpaid fees and charges, and any amount You are over Your
credit limit by the date specified on the statement. For our Connect card, the minimum payment is 2.55% of Your total new
balance, or $30.00, whichever is greater, plus the amount of any prior minimum payments that You have not made, all
outstanding unpaid fees and charges, and any amount You are over Your credit limit by the date specified on the
statement. The Credit Union also has the right to demand immediate payment of any amount by which You are over Your
credit limit. In accordance with applicable law, the Credit Union may not post payments to your account or reflect them in
Your available credit limit on the date they are received. The Credit Union may delay replenishing Your credit limit until the
date the payment is posted or the Credit Union confirms the payment has cleared.
4. CHOICE OF LAW — This Agreement has been made by Us, delivered to Us, and accepted by Us and will be
performed by You and Us in the State of Arizona. Accordingly, to the extent not preempted by federal law, the validity,
interpretation, construction, enforcement, and performance of this Agreement shall be governed by the laws of the State
of Arizona.
5. VENUE AND JURISDICTION — You irrevocably agree with Us that any suit, action, or other legal proceedings
arising under or relating to any provision of this Agreement will be brought and enforced exclusively in either: (1) the
competent courts of Arizona or (2) subject to Our sole and absolute election, the competent courts of any other state
(such as any other state in which any collateral for the loan is located or in which You reside) that affect the enforcement
of Our remedies under this Agreement. You hereby submit to the exclusive jurisdiction of such court(s) and waive any
right You may have to request a change of venue or a removal to another court or to collaterally attack any judgment
obtained or action taken by Us in connection therewith. You further consent and agree to service of any summons,
compliant or other legal process in any such suit, action, or other legal proceeding by registered or certified U.S. mail,
postage prepaid, to You at the appropriate address You have provided to Us and consent and agree that such service
shall constitute in every respect valid and effective service (but nothing herein shall affect the validity or effectiveness of
process served in any other manner permitted by applicable law).
6. JURY TRIAL WAIVER — To the extent permitted by applicable law, You and We each knowingly, voluntarily,
intentionally, and irrevocably waive any right to a trial by jury in any action, suit or other legal proceeding arising under or
relating to any provision of this Agreement.

© CUNA Mutual Group 1991, 2006, 09, 10, 12, 14, 16 All Rights Reserved

10200764-MXC30-C-1-051721 (MXC304-E)

7. INTEREST AND FINANCE CHARGES — We will begin charging You interest on purchases on the date the
transaction is posted to Your Account. We will begin charging You interest on cash advances and balance transfers on
the date of the transaction or the first day of the billing cycle in which the transaction is posted to Your Account, whichever
is later (transaction date). However, We will not charge You any interest on new purchases if Your Account had a zero or
credit balance at the beginning of that billing cycle, or You paid the entire new balance on the previous cycle's billing
statement by the Payment Due Date of that statement. To avoid an additional finance charge on the balance of
purchases, You must pay the entire new balance on the billing statement by the Payment Due Date of that statement.
How We Calculate Your Balance:
Interest charges on Your Account are calculated separately for purchases, balance transfers and cash advances
(“Transaction Type”). We figure the interest charge for each Transaction Type by applying the periodic rate to each
corresponding “average daily balance.” To get the “average daily balance” for a Transaction Type We take the beginning
balance for that Transaction Type each day, add any new transactions of that type, and subtract any unpaid interest or
other finance charges and any applicable payments or credits. This gives Us the daily balance for each Transaction Type.
Then, for each Transaction Type, We add up all the daily balances for the billing cycle and divide each total by the
number of days in the billing cycle. This gives Us the “average daily balance” for each Transaction Type.
8. FEES — In addition to the periodic rate, additional fees may be imposed on Your Account. If applicable to Your
Account, the fee amounts and explanations are disclosed on the Account Opening Disclosure accompanying this
Agreement.
9. FOREIGN TRANSACTIONS — Purchases and cash advances made in foreign currencies will be debited from Your
Account in U.S. dollars. The exchange rate between the transaction currency and the billing currency used for processing
international transactions is a rate selected by Visa from a range of rates available in wholesale currency markets for the
applicable central processing date, which rate may vary from the rate Visa itself receives or the government-mandated
rate in effect for the applicable central processing date. The exchange rate used on the processing date may differ from
the rate that would have been used on the purchase date or cardholder statement posting date.
A fee (finance charge), calculated in U.S. dollars, will be imposed on all foreign transactions, including purchases, cash
advances, and credits to Your Account. A foreign transaction is any transaction that You complete or a merchant
completes on Your Card outside of the United States, with the exception of U.S. military bases, U.S. territories, U.S.
embassies, or U.S. consulates. Transactions completed by merchants outside of the United States are considered foreign
transactions, regardless of whether You are located inside or outside the United States at the time of the transaction. The
Foreign Transaction Fee is set forth on the Account Opening Disclosure accompanying this Agreement.
10. AUTHORIZATIONS — We do not guarantee authorization of a transaction, either by Us or by a third party, even if
You have sufficient credit available. You agree that We will not be liable for failing to give an authorization. We also
reserve the right to limit the number of transactions that may be approved in one day. We reserve the right to deny certain
transactions for any reason and at Our sole discretion, including for default, suspected fraudulent or unlawful activity,
internet gambling or any indication of increased risk related to the transaction or the Account. You agree that We have no
requirement to notify You of the specific reason We denied a transaction. If We detect unusual or suspicious activity, We
may suspend Your credit privileges until We can verify the activity, or We may close the Account.
11. PREAUTHORIZED CHARGES — If You default, if the Card is lost or stolen, or We change the Account for any
reason, We may suspend automatic charges with third party vendors. If preauthorized charges are suspended, You are
responsible for making direct payment for such charges until You contact the third party to reinstate the automatic
charges.
12. DEFAULT — You will be in default under this Agreement if You fail to pay the Minimum Payment Due by its Payment
Due Date; pay by a check or similar instrument that is not honored or that We must return because it cannot be
processed; pay by automatic debit that is returned unpaid; make any false or misleading statements in any credit
application or credit update; file for bankruptcy; or die. You will also be in default if You fail to comply with the terms of this
Agreement or any other Agreement You have with Us.
If You default, We may close Your Account and require You to pay any unpaid balance immediately, subject to applicable
law. In this Agreement and on Your Credit Card Application, You gave Us a security interest in all individual or joint share
and/or deposit accounts with the Credit Union and authorized Us, if You defaulted, to apply the balance in these accounts
to any amounts due. You agree We may rely on Your agreement and authorization to, upon Your default, apply any
balance to any amounts due on Your Account.
13. LIABILITY FOR UNAUTHORIZED USE-LOST/STOLEN CARD NOTIFICATION — If You notice the loss or theft of
Your credit card or a possible unauthorized use of Your Card, You should write to Us immediately at PO Box 15115,
Tucson, AZ, 85708-0115 or call Us at (520) 298-7882, Monday through Friday 8:00 a.m. to 5:00 p.m. or (520) 751-7070 or
(800) 269-7070, select option #4, seven days a week 24 hours a day.
You will not be liable for any unauthorized use that occurs after You notify Us. You may, however, be liable for
unauthorized use that occurs before Your notice to Us. You will have no liability for unauthorized use unless You are
found to be fraudulent or negligent in the handling of Your Account or Card. In any case, Your liability for unauthorized
transactions will not exceed $50.
Page 2 of 5
10200764-MXC30-C-1-051721 (MXC304-E)

14. CHANGING OR TERMINATING YOUR ACCOUNT — As permitted by law, the Credit Union may change the terms
of this Agreement and any attached Disclosure from time to time. Notice of any change will be given in accordance with
applicable law. To the extent permitted by law, changes to the Agreement may apply to Your existing account balance as
well as to future transactions.
Arizona, California, Idaho, Louisiana, New Mexico, Nevada, Texas, Washington, and Wisconsin Residents - Either
You, Your spouse or the Credit Union may terminate this Agreement at any time, but termination by You, Your spouse or
the Credit Union will not affect Your obligation to pay the account balance plus any finance and other charges You or Your
spouse owe under this Agreement. Your obligation to pay the account balance plus any finance and other charges You
owe under this agreement are subject to all applicable laws and regulations regarding repayment requirements. The Card
or Cards You receive remain the property of the Credit Union and You must recover and surrender to the Credit Union all
Cards upon request or upon termination of this Agreement whether by You or the Credit Union.
Residents of all other states - Either You or the Credit Union may terminate this Agreement at any time, but termination
by You or the Credit Union will not affect Your obligation to pay the account balance plus any finance and other charges
You owe under this Agreement. Your obligation to pay the account balance plus any finance and other charges You owe
under this agreement are subject to all applicable laws and regulations regarding repayment requirements. The Card or
Cards You receive remain the property of the Credit Union and You must recover and surrender to the Credit Union all
Cards upon request or upon termination of this Agreement whether by You or the Credit Union.
15. AUTHORIZED USERS — Upon Your request, We may issue additional Cards for authorized users that You
designate. You must notify Us in writing of any termination of an authorized user's right to access Your Account. Your
notice must include the name of the authorized user and Your Account number and/or any subaccount number issued to
the authorized user along with the authorized user's Card and any convenience or other access checks issued to the
authorized user. If You cannot return the authorized user's Card or access checks and if You request Your Account to be
closed, We will close Your Account and You may apply for a new Account. Alternatively, We may, at Our sole discretion,
issue You a new Account number and a new Card.
16. CREDIT REPORTS — You authorize the Credit Union to obtain credit reports and any other information We may
need to verify Your identity and use of the Account when opening Your Account and for any update, increase, renewal,
extension, collection or review of Your Account. You authorize the Credit Union to disclose information regarding Your
Account to credit bureaus and creditors who inquire about Your credit standing.
17. JOINT ACCOUNTS — If this is a joint Account, each of You will be individually and jointly responsible for paying all
amounts owed under this Agreement. This means that the Credit Union can require any one of You individually to repay
the entire amount owed under this Agreement. Each of You authorizes the other(s) to make transactions on the Account
individually. Any one of You may terminate the Account and the termination will be effective as to all of You.
18. EFFECT OF AGREEMENT — This Agreement is the contract which applies to all transactions on Your Account even
though the sales, cash advances, credit or other slips You sign or receive may contain different terms.
19. SEVERABILITY AND FINAL EXPRESSION — This Agreement is the final expression of the terms and conditions of
Your Account. This written Agreement may not be contradicted by evidence of any alleged oral Agreement. Should any
part of this Agreement be found to be invalid or unenforceable, all other parts of this Agreement shall remain in effect and
fully enforceable to the fullest extent possible under this Agreement. Any term or provision herein that is prohibited by
the Military Lending Act shall not apply to You if You are a covered borrower under the Military Lending Act, in
which case such provisions shall be deemed severed from this Agreement, including without limitation
paragraph 7 of this Agreement. For clarity, You will not be deemed a covered borrower, and such terms and
provisions will apply if: (i) You established Your credit card Account when You were not a covered borrower: or
(ii) You cease to be a covered borrower.
20. ILLEGAL TRANSACTIONS PROHIBITED — You agree that You will not use Your Card for any transaction, including
any type of electronic gambling transaction through the Internet, that is illegal under applicable federal, state, or local law.
Even if You use Your Card for an illegal transaction, You will be responsible for all amounts and charges incurred in
connection with the transaction. This paragraph shall not be interpreted as permitting or authorizing any transaction that is
illegal.
21. APPLICABLE LAW — The terms and enforcement of this Agreement shall be governed by federal law and the law of
Arizona.
22. ENFORCING THIS AGREEMENT — We can delay in enforcing or fail to enforce any of Our rights under this
Agreement without losing them.
23. COLLECTION COSTS — If We refer collection of Your Account to a lawyer who is not Our salaried employee, You
are liable for any reasonable attorney’s fees We incur, plus the costs and expenses of any legal action, as further
disclosed on this Agreement, or to the extent allowed by law.
24. ASSIGNMENT — We may assign any or all of Our rights and obligations under this Agreement to a third party.
25. OVERDRAFT PRIVILEGE — You agree that if, pursuant to any overdraft privilege on a Credit Union Share Draft
Account, there is an overdraft of Your Share Draft Account, the amount of overdraft will be added to the outstanding
Page 3 of 5
10200764-MXC30-C-1-051721 (MXC304-E)

balance on Your Visa Credit Card Account, subject to the finance charge provisions set forth in “INTEREST AND
FINANCE CHARGES” as described for cash advances, and will be subject to all terms and conditions of this Agreement.
The Visa Credit Card Account must be current and not over the credit limit for funds to transfer to the Share Draft
Account. Overdrafts are not allowed for the purpose of making loan payments, including Visa Credit Card payments, at
the Credit Union, ATM or in-branch teller cash withdrawals. The Share Draft Account referred to herein is also subject to a
separate agreement between You and the Credit Union. Where the terms of any other agreement between You and the
Credit Union conflict with the terms of this Agreement, the terms of this Agreement will control.
26. CALIFORNIA RESIDENTS — A married applicant may apply for a separate Account. Applicants: 1) may, after credit
approval, use the credit card Account up to its credit limit; 2) may be liable for amounts extended under the plan to any
joint applicant. As required by law, You are hereby notified that a negative credit report reflecting on Your credit record
may be submitted to a credit reporting agency if You fail to fulfill the terms of Your credit obligations.
27. FLORIDA RESIDENTS — You (borrower) agree that, should We obtain a judgment against You, a portion of
Your disposable earnings may be attached or garnished (paid to Us by Your employer), as provided by Florida
and Federal law.
28. MARYLAND RESIDENTS — To the extent, if any, that Maryland law applies to Your Account, We elect to offer Your
Card Account pursuant to Title 12, Subtitle 9 of the Maryland Commercial Law Article.
29. MISSOURI RESIDENTS — Oral Agreements or commitments to loan money, extend credit or to forbear from
enforcing repayment of a debt including promises to extend or renew such debt are not enforceable. To protect
You (borrower(s)) and Us (creditor) from misunderstanding or disappointment, any Agreements We reach
covering such matters are contained in this writing, which is the complete and exclusive statement of the
Agreement between Us, except as We may later agree in writing to modify it.
30. NEW YORK RESIDENTS — We may obtain a credit report in connection with this Account, including for any review,
modification, renewal or collections associated with this Account. Upon Your request, You will be informed whether such
report was requested and, if so, the name and address of the consumer reporting agency furnishing the report. New York
residents may contact the New York State Department of Financial Services at 800.342.3736 or www.dfs.ny.gov to obtain
a comparative listing of credit card rates, fees and grace periods.
31. OHIO RESIDENTS — The Ohio laws against discrimination require that all creditors make credit equally available to
all creditworthy customers and that credit reporting agencies maintain separate credit histories on each individual upon
request. The Ohio Civil Rights Commission administers compliance with this law.
32. SOUTH DAKOTA RESIDENTS — If You believe there have been any improprieties in making this loan or in the
lender’s loan practices, You may contact the South Dakota Division of Banking at 1601 N. Harrison Ave, Suite 1, Pierre,
SD 57501, or by phone at 605.773.3421.
33. WISCONSIN RESIDENTS — If You are married, please contact Us immediately upon receipt of this Agreement at the
address or phone number listed on this Agreement and provide Us with the name and address of Your spouse. We are
required to inform Your spouse that We have opened an Account for You.
34. NOTICE TO UTAH BORROWERS — This written Agreement is a final expression of the Agreement between You
and the Credit Union. This written Agreement may not be contradicted by evidence of any oral Agreement. As required by
law, You are hereby notified that a negative credit report reflecting on Your credit record may be submitted to a credit
reporting agency if You fail to fulfill the terms of Your credit obligations.
35. THE FOLLOWING IS REQUIRED BY VERMONT LAW — NOTICE TO CO-SIGNER — YOUR SIGNATURE ON
THIS NOTE MEANS THAT YOU ARE EQUALLY LIABLE FOR REPAYMENT OF THIS LOAN. IF THE BORROWER
DOES NOT PAY, THE LENDER HAS A LEGAL RIGHT TO COLLECT FROM YOU.

Page 4 of 5
10200764-MXC30-C-1-051721 (MXC304-E)

Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at the address listed on Your statement.
In Your letter, give Us the following information:

- Account information: Your name and Account number.
- Dollar amount: The dollar amount of the suspected error.
- Description of problem: If You think there is an error on Your bill, describe what You believe is wrong and why You
believe it is a mistake.
You must contact Us:
- Within 60 days after the error appeared on Your statement.
- At least three business days before an automated payment is scheduled, if You want to stop payment on the amount
You think is wrong.
You must notify Us of any potential errors in writing or electronically. You may call Us, but if You do We are not required
to investigate any potential errors and You may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When We receive Your letter, We must do two things:
1. Within 30 days of receiving Your letter, We must tell You that We received Your letter. We will also tell You if We have
already corrected the error.
2. Within 90 days of receiving Your letter, We must either correct the error or explain to You why We believe the bill is
correct.
While We investigate whether or not there has been an error:
- We cannot try to collect the amount in question, or report You as delinquent on that amount.
- The charge in question may remain on Your statement, and We may continue to charge You interest on that amount.
- While You do not have to pay the amount in question, You are responsible for the remainder of Your balance.
- We can apply any unpaid amount against Your credit limit.
After We finish Our investigation, one of two things will happen:
- If We made a mistake: You will not have to pay the amount in question or any interest or other fees related to that
amount.
- If We do not believe there was a mistake: You will have to pay the amount in question, along with applicable
interest and fees. We will send You a statement of the amount You owe and the date payment is due. We may then
report You as delinquent if You do not pay the amount We think You owe.
If You receive Our explanation but still believe Your bill is wrong, You must write to Us within 10 days telling Us that You
still refuse to pay. If You do so, We cannot report You as delinquent without also reporting that You are questioning Your
bill. We must tell You the name of anyone to whom We reported You as delinquent, and We must let those organizations
know when the matter has been settled between Us.
If We do not follow all of the rules above, You do not have to pay the first $50 of the amount You question even if Your bill
is correct.
Your Rights if You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with Your credit card, and You have tried in
good faith to correct the problem with the merchant, You may have the right not to pay the remaining amount due on the
purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in Your home state or within 100 miles of Your current mailing address, and the
purchase price must have been more than $50. (Note: Neither of these are necessary if Your purchase was based on
an advertisement We mailed to You, or if We own the company that sold You the goods or services.)
2. You must have used Your credit card for the purchase. Purchases made with cash advances from an ATM or with a
check that accesses Your credit card Account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and You are still dissatisfied with the purchase, contact Us in writing or electronically at
the address listed on Your statement.
While We investigate, the same rules apply to the disputed amount as discussed above. After We finish Our investigation,
We will tell You Our decision. At that point, if We think You owe an amount and You do not pay, We may report You as
delinquent.
Page 5 of 5
10200764-MXC30-C-1-051721 (MXC304-E)

DESCRIPTION OF COVERAGE
Worldwide Automatic Travel Accident & Baggage Delay Insurance
Consumer Credit Card Account
THE PLAN: As a Vantage West Credit Union Cardholder, you, your spouse or domestic partner and unmarried
dependent children will be automatically insured against accidental loss of life, limb, sight, speech or hearing
while riding as a passenger in, entering or exiting any licensed common carrier, provided the entire cost of the
passenger fare(s), less redeemable certificates, vouchers or coupons, has been charged to your credit card
account. If the entire cost of the passenger fare has been charged to your credit card account prior to departure
for the airport, terminal or station, coverage is also provided for common carrier travel (including taxi, bus, train
or airport limousine); immediately, a) preceding your departure, directly to the airport, terminal or station b)
while at the airport, terminal or station, and c) immediately following your arrival at the airport, terminal or
station of your destination. If the entire cost of the passenger fare has not been charged prior to your arrival at
the airport, terminal or station, coverage begins at the time the entire cost of the travel passenger fare is charged
to your credit card account. Common Carrier means any land, water or air conveyance operated by those whose
occupation or business is the transportation of persons without discrimination and for hire. This coverage does
not include Commutation which is defined as travel between the Insured Person’s residence and regular place of
employment.
IMPORTANT DEFINITIONS: Accident or Accidental means a sudden, unforeseen, and unexpected event
happening by chance. Dependent Child(ren) means those children, including adopted children and children
placed for adoption, who are primarily dependent upon the Insured Person for maintenance and support and
who are: 1) under the age of nineteen (19) and reside with the Insured Person: or 2) beyond the age of nineteen
(19), permanently mentally or physically challenged, and incapable of self-support; or 3) under the age of twentyfive (25) and classified as a full-time student at an institute of higher learning. Domestic Partner means a person
designated in writing by the primary insured person, who is at least eighteen (18) years of age, and who during
the past twelve (12) months: 1) has been in a committed relationship with the primary insured person; and 2) has
been the primary insured person’s sole spousal equivalent; and 3) has resided in the same household as the
primary insured person; and 4) has been jointly responsible with the primary insured person for each other’s
financial obligations, and who intends to continue the relationship above indefinitely.
THE BENEFITS: The full Benefit Amount of $50,000 is payable for accidental loss of life, two or more members,
sight of both eyes, speech and hearing or any combination thereof. One half of the Benefit Amount is payable for
accidental loss of: one member, sight of one eye, speech or hearing. “Member” means hand or foot. One quarter
of the Benefit Amount is payable for the accidental loss of the thumb and index finger of the same hand. “Loss”
means, with respect to a hand, complete severance through or above the knuckle joints of at least 4 fingers on
the same hand; with respect to a foot, complete severance through or above the ankle joint. The Company will
consider it a loss of hand or foot even if they are later reattached. “Benefit Amount” means the Loss amount
applicable at the time the entire cost of the passenger fare is charged to a credit card account. The loss must
occur within one year of the accident. The Company will pay the single largest applicable Benefit Amount. In no
event will duplicate request forms or multiple charge cards obligate the Company in excess of the stated Benefit
Amounts for any one loss sustained by any one individual insured as the result of any one accident. In the event
of multiple accidental deaths per account arising from any one accident, the Company’s liability for all such losses
will be subject to a maximum limit of insurance equal to three times the Benefit Amount for loss of life. Benefits
will be proportionately divided among the Insured Persons up to the maximum limit of insurance.

BAGGAGE DELAY: We will reimburse the Insured Person up to the Daily Benefit Amount of $100 per day for 3
days in the event of a Baggage Delay. Our payment is limited to expenses incurred for the emergency purchase of
essential items needed by the Insured Person while on a covered trip and at a destination other than the Insured
Person’s primary residence. Essential items not covered by Baggage Delay include, but are not limited to:
1)contact lenses, eyeglasses or hearing aids; 2)artificial teeth, dental bridges or prosthetic devices; 3)tickets,
documents, money, securities, checks, travelers checks and valuable papers; 4)business samples. The Baggage
Delay Benefit Amount is excess over any other insurance (including homeowners) or indemnity (including any
reimbursements by the airline, cruise line, railroad, station authority, occupancy provider) available to the
Insured Person. Baggage Delay means a delay or misdirection of the Insured Person’s Baggage by a Common
Carrier for more than four (4) hours from the time the Insured Person arrives at the destination on the Insured
Person’s ticket.
ELIGIBILITY: This travel insurance plan is provided to Vantage West Credit Union cardholders automatically when
the entire cost of the passenger fare(s) are charged to a credit card account while the insurance is effective.
It is not necessary for you to notify Vantage West Credit Union, the administrator or the Company when tickets
are purchased.
THE COST: This travel insurance plan is provided at no additional cost to eligible Vantage West Credit Union credit
card account holders.
BENEFICIARY: The Loss of Life benefit will be paid to the beneficiary designated by the insured. If no such
designation has been made, that benefit will be paid to the first surviving beneficiary in the following order: a)
the Insured’s spouse, b) the Insured’s children, c) the Insured’s parents, d) the Insured’s brothers and sisters, e)
the Insured’s estate. All other indemnities will be paid to the Insured.
EXCLUSIONS: This insurance does not cover loss resulting from: 1) an Insured’s emotional trauma, mental or
physical illness, disease, pregnancy, childbirth or miscarriage, bacterial or viral infection (except bacterial
infection caused by an accident or from accidental consumption of a substance contaminated by bacteria), or
bodily malfunctions; 2) suicide, attempted suicide or intentionally self-inflicted injuries; 3) declared or undeclared
war, but war does not include acts of terrorism; 4) travel between the Insured Person’s residence and regular
place of employment. This insurance also does not apply to an accident occurring while an Insured is in, entering,
or exiting any aircraft owned, leased, or operated by Vantage West Credit Union; or any aircraft while acting or
training as a pilot or crew member, but this exclusion does not apply to passengers who temporarily perform
pilot or crew functions in a life threatening emergency.
CLAIM NOTICE: Written claim notice must be given to the Company within 20 days after the occurrence of any
loss covered by this policy or as soon as reasonably possible. Failure to give notice within 20 days will not
invalidate or reduce any otherwise valid claim if notice is given as soon as reasonably possible.
CLAIM FORMS: When the Company receives notice of a claim, the Company will send you forms for giving proof
of loss to us within 15 days. If you do not receive the forms, you should send the Company a written description
of the loss.

CLAIM PROOF OF LOSS: Complete proof of loss must be given to us within 90 days after the date of loss, or as
soon as reasonably possible. Failure to give complete proof of loss within these time frames will not invalidate
any otherwise valid claim if notice is given as soon as reasonably possible and in no event later than 1 year after
the deadline to submit complete proof of loss. CLAIM PAYMENT: For all benefits, the Company will pay you or
your beneficiary the applicable benefit amount within 60 days after complete proof of loss is received and if you,
the Policyholder and/or the beneficiary have complied with all the terms of this policy.
EFFECTIVE DATE: This insurance is effective 7/1/12, or on the date that you become a Vantage West credit
cardholder, whichever is latest; and will cease on the date the Master Policy 6477-44-67 is terminated or on the
date your credit card account ceases to be in good standing, whichever occurs first. As a handy reference guide,
please read this and keep it in a safe place with your other insurance documents. This description of coverage is
not a contract of insurance but is simply an informative statement of the principal provisions of the insurance
while in effect. Complete provisions pertaining to this plan of Insurance are contained in the master policy on file
with the Policyholder: Financial Customer Insurance Trust. If this plan does not conform to your state statutes, it
will be amended to comply with such laws. If a statement in this description of coverage and any provision in the
policy differ, the policy will govern. Answers to specific questions can be obtained by writing the Plan
Administrator.
To make a claim please contact the Plan Administrator.
Plan Underwritten By
Federal Insurance Company
A member insurer of the
Chubb Group of Insurance Companies
15 Mountain View Road, P.O. Box 1615
Warren, NJ 07061-1615
Plan Agent
DFS&A Insurance Agency, Inc.
80 West Upper Ferry Road
Suite 5, PO Box 77358
Ewing, NJ 08628
DTO-44-0362-MC

Auto Rental Collision Damage Waiver
No cardholder wants to incur the expense of repairing or replacing a rented car. But accidents do happen,
and vehicles do get stolen. No matter what happens to Your rental car, You can be covered with Auto
Rental Collision Damage Waiver. Auto Rental Collision Damage Waiver reimburses You for damages
caused by theft or collision -- up to the Actual Cash Value of most rented cars. Auto Rental Collision
Damage Waiver covers no other type of loss. For example, in the event of a collision involving Your
rented vehicle, damage to any other driver’s car or the injury of anyone or anything is not covered. Rental
periods of fifteen (15) consecutive days within Your country of residence, and thirty-one (31) consecutive
days outside it, are both covered. (Longer rental periods, however, are not covered.)
You are eligible for this benefit if Your name is embossed on an eligible card issued in the United States
and You use it to initiate and complete Your entire car rental transaction. Only You as the primary car
renter and any additional drivers permitted by the Rental Car Agreement are covered.
How Auto Rental Collision Damage Waiver works with other insurance
Auto Rental Collision Damage Waiver covers theft, damage, valid loss-of-use charges imposed and
substantiated by the auto rental company, administrative fees and reasonable and customary towing
charges, due to a covered theft or damage to the nearest qualified repair facility.
If You do have personal automobile insurance or other insurance that covers theft or damage, this benefit
reimburses You for the deductible portion of Your car insurance or other insurance, along with any
unreimbursed portion of administrative and loss-of-use charges imposed by the car rental company, as
well as reasonable towing charges while the car was Your responsibility.
If You do not have personal automobile insurance or any other insurance, the benefit reimburses You for
covered theft, damage, or administrative and loss-of-use charges imposed by the rental company, as well
as reasonable towing charges that occur while You are responsible for the vehicle.
If You are renting outside of Your country of residence, the coverage provided under this benefit is
primary and reimburses You for covered theft, damage, or administrative and loss-of-use charges
imposed by the rental company, as well as reasonable towing charges that occur while You are responsible
for the vehicle.
How to use Auto Rental Collision Damage Waiver
1. Use Your card to initiate and complete Your entire car rental transaction.
2. Review the auto rental agreement and decline the rental company’s collision damage waiver
(CDW/LDW) option, or a similar provision, as accepting this coverage will cancel out
Your benefit. If the rental company insists that You purchase their insurance or collision
damage waiver, call the Benefit Administrator for assistance at 1-800-348-8472.
Outside the United States, call collect at 1-804-673-1164.
Before You leave the lot, be sure to check the car for any prior damage.
This benefit is in effect during the time the rental car is in Your (or an authorized driver’s) control, and it
terminates when the rental company reassumes control of their vehicle.
This benefit is available in the United States and most foreign countries (with the exception of Israel,
Jamaica, the Republic of Ireland or Northern Ireland). However, this benefit is not available
where precluded by law, or where it’s in violation of the territory terms of the auto rental agreement, or
when prohibited by individual merchants. Because regulations vary outside the United States,

1|Page

check with Your auto rental company and the Benefit Administrator before You travel, to
be sure that Auto Rental Collision Damage Waiver will apply.
Vehicles not covered
Certain vehicles are not covered by this benefit, they consist of: expensive, exotic, and antique cars; cargo
vans; certain vans; vehicles with an open cargo bed; trucks; motorcycles; mopeds; motorbikes;
limousines; and recreational vehicles.
Examples of expensive or exotic cars are the Alfa Romeo, Aston Martin, Bentley, Corvette, Ferrari, Jaguar,
Lamborghini, Lotus, Maserati, Maybach, McLaren, Porsche, Rolls Royce, and Tesla. However, selected
models of Audi, BMW, Mercedes-Benz, Cadillac, Infiniti, Land Rover, Lexus, Lincoln, and Range Rover
are covered.
An antique car is defined as one that is over twenty (20) years old, or one that has not been manufactured
for ten (10) years or more.
Vans are not covered. But those designed as small-group transportation vehicles (seating up to nine (9)
people, including the driver) are covered.
If You have questions about a specific vehicle’s coverage or organization where the vehicle
is being reserved, call the Benefit Administrator at 1-800-348-8472, or call collect outside
the United States at 1-804-673-1164.
Related instances & losses not covered
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•

Any obligation You assume under any agreement (other than the deductible on Your personal
auto policy)
Any violation of the auto rental agreement or this benefit
Injury of anyone, or damage to anything, inside or outside the Rental Vehicle
Loss or theft of personal belongings
Personal liability
Expenses assumed, waived, or paid by the auto rental company, or its insurer
The cost of any insurance, or collision damage waiver, offered by or purchased through the auto
rental company
Depreciation of the Rental Vehicle caused by the incident including, but not limited to,
“diminished value”
Expenses reimbursable by Your insurer, employer, or employer’s insurance
Theft or damage due to intentional acts, or due to the driver(s) being under the influence of
alcohol, intoxicants, or drugs, or due to contraband, or illegal activities
Wear and tear, gradual deterioration, or mechanical breakdown
Items not installed by the original manufacturer
Damage due to off-road operation of the Rental Vehicle
Theft or damage due to hostility of any kind (including, but not limited to, war, invasion,
rebellion, insurrection, or terrorist activities)
Confiscation by authorities
Vehicles that do not meet the definition of covered vehicles
Rental periods that either exceed, or are intended to exceed, fifteen (15) consecutive days, within
Your country of residence, or thirty-one (31) days outside Your country of residence
Leases and mini leases
Theft or damage as a result of the authorized driver’s and/or cardholder’s lack of reasonable care
in protecting the Rental Vehicle before and/or after damage or theft occurs (for example, leaving
the car running and unattended)
Theft or damage reported more than forty-five (45) days* after the date of the incident

2|Page

•
•
•

Theft or damage for which a claim form has not been received within ninety (90) days* from the
date of the incident
Theft or damage for which all required documentation has not been received within three
hundred and sixty-five (365) days after the date of the incident
Theft or damage from rental transactions that originated in Israel, Jamaica, the Republic of
Ireland, or Northern Ireland

*Not applicable to residents in certain states
Filing a claim
It is Your responsibility as a cardholder to make every effort to protect Your Rental Vehicle from damage
or theft. If You have an accident, or Your Rental Vehicle has been stolen, immediately call the Benefit
Administrator at 1-800-348-8472 to report the incident, regardless of whether Your liability has been
established. Outside the United States, call collect at 1-804-673-1164.
You should report the theft or damage as soon as possible but no later than forty-five (45) days from
the date of the incident.
The Benefit Administrator reserves the right to deny any claim containing charges that would not have
been included, if notification occurred before the expenses were incurred. Thus, it’s in Your best interest
to notify the Benefit Administrator immediately after an incident. Reporting to any other person will not
fulfill this obligation.
What You must submit to file a claim
At the time of the theft or damage, or when You return the Rental Vehicle, ask Your car rental company
for the following documents:
• A copy of the accident report form
• A copy of the initial and final auto rental agreements (front and back)
• A copy of the repair estimate and itemized repair bill
• Two (2) photographs of the damaged vehicle, if available
• A police report, if obtainable
• A copy of the demand letter which indicates the costs You are responsible for and any amounts
that have been paid toward the claim
Submit all of the above documents from the rental company, along with the following documents, to the
Benefit Administrator:
• The completed and signed Auto Rental Collision Damage Waiver claim form (Important: This
must be postmarked within ninety (90) days* of the theft or damage date, even if all other
required documentation is not yet available – or Your claim may be denied).
• A copy of Your monthly billing statement (showing the last 4 digits of the Account number)
demonstrating that the entire rental transaction was made on Your eligible Account.
• A statement from Your insurance carrier (and/or Your employer or employer’s insurance carrier,
if applicable), or other reimbursement showing the costs for which You are responsible, and any
amounts that have been paid toward the claim. Or, if You have no applicable insurance or
reimbursement, a statement of no insurance or reimbursement is required.
• A copy of Your primary insurance policy’s Declarations Page (if applicable) to confirm Your
deductible (This means the document(s) in Your insurance policy that lists names, coverages,
limits, effective dates, and deductibles).
• Any other documentation required by the Benefit Administrator to substantiate the claim.
Finally, please note that all remaining documents must be postmarked within three hundred and sixtyfive (365) days* of the theft or damage date or Your claim may be denied.

3|Page

*Not applicable to residents of certain states.
For faster filing, or to learn more about Auto Rental Collision Damage Waiver, visit
www.eclaimsline.com

Finalizing Your claim
Your claim will typically be finalized within 15 (fifteen) days, after the Benefit Administrator has received
all the documentation needed to substantiate Your claim.
Transference of claims
Once Your claim has been paid, all Your rights and remedies against any party in regard to this theft or
damage will be transferred to the Benefit Administrator, to the extent of the cost of payment made to You.
You must give the Benefit Administrator all assistance as may reasonably be required to secure all rights
and remedies.
Definitions
Account means Your credit or debit card Accounts.
Actual Cash Value means the amount a Rental Vehicle is determined to be worth based on its market
value, age and condition at the time of loss.
Eligible Person means a cardholder who pays for their auto rental by using their eligible Account.
Rental Car Agreement means the entire contract an eligible renter receives when renting a Rental
Vehicle from a rental car agency which describes in full all of the terms and conditions of the rental, as
well as the responsibilities of all parties under the contract.
Rental Vehicle means a land motor vehicle with four or more wheels as described in the participating
organization’s disclosure statement which the eligible renter has rented for the period of time shown on
the Rental Car Agreement and does not have a manufacturer’s suggested retail price exceeding the
amount shown on the participating organization’s disclosure statement
You or Your means an Eligible Person who uses their eligible card to initiate and complete the rental car
transaction.
Additional provisions for Auto Rental Collision Damage Waiver
•
•
•

•

•

Signed or pinned transactions are covered as long as You use Your eligible Account to secure the
transaction.
You shall do all things reasonable to avoid or diminish any loss covered by this benefit. This
provision will not be unreasonably applied to avoid claims.
If You make any claim knowing it to be false or fraudulent in any respect, no coverage shall exist
for such claim, and Your benefit may be cancelled. Each cardholder agrees that representations
regarding claims will be accurate and complete. Any and all relevant provisions shall be void in
any case of fraud, intentional concealment, or misrepresentation of material fact.
No legal action for a claim may be brought against the Provider until sixty (60) days after the
Provider receives Proof of Loss. No legal action against the Provider may be brought more than
two (2) years after the time for giving Proof of Loss. Further, no legal action may be brought
against the Provider unless all the terms of the Guide to Benefits have been complied with fully.
This benefit is provided to eligible cardholders at no additional cost. The terms and conditions
contained in this Guide to Benefits may be modified by subsequent endorsements. Modifications

4|Page

•

•

•

to the terms and conditions may be provided via additional Guide to Benefits mailings, statement
inserts, statement messages or electronic notification. The benefits described in this Guide to
Benefits will not apply to cardholders whose Accounts have been suspended or cancelled.
Termination dates may vary by financial institutions. Your financial institution can cancel or nonrenew the benefits for cardholders, and if they do, they will notify You at least thirty (30) days in
advance. Indemnity Insurance Company of North America (“Provider”) is the underwriter of
these benefits and is solely responsible for its administration and claims. The Benefit
Administrator provides services on behalf of the Provider.
After the Benefit Administrator has paid Your claim, all Your rights and remedies against any
party in respect of this claim will be transferred to the Benefit Administrator to the extent of the
payment made to You. You must give the Benefit Administrator all assistance as may reasonably
be required to secure all rights and remedies.
This benefit does not apply to the extent that trade or economic sanctions or other laws or
regulations prohibit the provision of insurance, including, but not limited to, the payment of
claims.

For more information about the benefit described in this guide, call the Benefit
Administrator at 1-800-348-8472, or call collect outside the U.S. at 1-804-673-1164.
FORM #ARCDW – 2017 (Stand 04/17)

ARCDW-O

5|Page

Extended Warranty Protection
Product warranties can be inconvenient and cumbersome to use. Let’s say You purchased a great gadget
about a year ago, but it just stopped working, and You can’t find Your sales receipt and warranty
information. For all too common situations like these, Extended Warranty Protection can help.
Extended Warranty Protection provides You with valuable features that help You manage, use and extend
the warranties for eligible items purchased on Your covered Account and/or rewards program associated
with Your covered Account. Services include Warranty Registration and Extended Protection. You are
eligible for this benefit if You are a cardholder of an eligible card issued in the United States and You
purchase either a portion or the entire cost of the item using Your Account and/or rewards program
associated with Your covered Account.
Here’s how Warranty Registration works
When You purchase an eligible item that carries a manufacturer’s warranty, You can register Your
purchase by calling 1-800-551-8472 or call collect outside the U.S. at 1-303-967-1096. You can
also register Your purchase online at www.cardbenefitservices.com.
The Benefit Administrator will tell You where to send Your item’s sales receipt and warranty information,
so they can be kept on file should You need them.
If You choose not to register Your item, be sure to keep Your monthly billing statement reflecting the
purchase, the itemized sales receipt, the original manufacturer’s written U.S. warranty and any additional
warranty in a safe place. These documents will be required to verify Your claim.
Here’s how Extended Protection works
Your warranty coverage can be doubled up to one (1) additional year on eligible warranties of three (3)
years or less. For example, a manufacturer’s warranty of three (3) months would be provided with an
additional three (3) months of coverage for a combined total of six (6) months of coverage, and a warranty
for six (6) months would be provided with an additional six (6) months of coverage for a combined total of
twelve (12) months of coverage. However, if the manufacturer’s warranty is for three (3) years, it would
only be extended one (1) additional year for a combined total of four (4) years of coverage.
This benefit is limited to no more than the original price of the purchased item (as shown on Your
credit card receipt), less shipping and handling fees, up to a maximum of ten thousand dollars
($10,000.00) per claim, and fifty thousand dollars ($50,000.00) per cardholder.
The benefit covers purchases made both inside and outside the U.S. The eligible item must have a valid
original manufacturer’s U.S. repair warranty of three (3) years or less, store-purchased dealer warranty,
or an assembler warranty.
What Extended Protection does not cover
•
•
•

Boats, automobiles, aircraft, and any other motorized vehicles and their motors, equipment, or
accessories, including trailers and other items that can be towed by or attached to any motorized
vehicle
Any costs other than those specifically covered under the terms of the original manufacturer’s
written U.S. repair warranty, as supplied by the original manufacturer, or other eligible warranty
Items purchased for resale, professional, or commercial use

1|Page

•
•
•
•
•

Real estate and items which are intended to become part of real estate including, but not limited
to, items that are hard-wired or hard-plumbed, garage doors, garage door openers, and ceiling
fans
Rented or leased items
Computer software
Medical equipment
Used or pre-owned items (Refurbished items will be covered as long as it has a warranty with it
and would not be considered used or pre-owned.)

Filing an Extended Protection claim
To file a claim, call the Benefit Administrator at 1-800-551-8472 or call collect outside the U.S. at
1-303-967-1096, immediately after the failure of Your covered item. Please note if You do not
notify the Benefit Administrator within sixty (60) days of product failure, Your claim may
be denied.
The Benefit Administrator will request preliminary claim information, direct You to the appropriate
repair facility, and send You the claim form. Gift recipients of eligible items are also covered, but they
must provide all the documents needed to substantiate their claim.
If You received or purchased a service contract or an extended warranty when You purchased Your item,
this benefit will be supplemental to, and in excess of, that coverage.
What You must submit to file a claim
Fill out and sign the claim form the Benefit Administrator sent You, then submit the form within ninety
(90) days of the product failure, along with the following documents:
•
•
•
•
•
•
•

A copy of Your monthly billing statement (showing the last four [4] digits of the Account number)
demonstrating that the purchase was made on Your eligible Account and/or rewards program
associated with Your covered Account
If more than one method of payment was used, please provide documentation as to additional
currency, voucher, points or any other payment method utilized
A copy of the itemized sales receipt
A copy of the original manufacturer’s written U.S. warranty, and any other applicable warranty
A description of the item and its serial number, and any other documentation deemed necessary
to substantiate Your claim (this includes bills and, if necessary, a copy of the maintenance record
and receipts)
The original repair estimate or repair bill, indicating cause of failure
Any other documentation deemed necessary by the Benefit Administrator to substantiate the
claim

All claims must be fully substantiated.
For faster filing, or to learn more about Extended Warranty Protection, visit
www.cardbenefitservices.com
How You will be reimbursed
If You have substantiated Your claim and met the terms and conditions of the benefit, Your item will be
replaced or repaired at the Benefit Administrator’s discretion, but for no more than the original
purchase price of the covered item, as recorded on Your credit card receipt, less shipping and handling
fees, up to a maximum of ten thousand dollars ($10,000.00) per claim, and a maximum of fifty thousand
dollars ($50,000.00) per cardholder. You will only be reimbursed up to the amount charged to Your
Account or the program limit, whichever is less.

2|Page

Under normal circumstances, reimbursement will occur within five (5) business days of the receipt and
approval of all required documents.
If Your item is to be repaired, You may go to an authorized repair facility and file a claim for
reimbursement. Only valid and reasonable repairs made at the manufacturer’s authorized repair facility
are covered.
In either case, the Benefit Administrator’s payment, replacement, or repair made in good faith will fulfill
the obligation under this benefit.
Definitions
Account means Your credit or debit card Accounts.
Eligible Person means a cardholder who pays for their purchase by using their eligible Account and/or
rewards program associated with their covered Account.
You or Your means an Eligible Person who purchase their item with their eligible Account and/or
rewards program associated with their covered Account.

Additional provisions for Extended Protection
•
•
•

•

•

•

•

•

Signed or pinned transactions are covered as long as You use Your eligible card to secure the
transaction.
You shall do all things reasonable to avoid or diminish any loss covered by this benefit. This
provision will not be unreasonably applied to avoid claims.
If You make any claim knowing it to be false or fraudulent in any respect, no coverage shall exist
for such claim, and Your benefit may be cancelled. Each cardholder agrees that representations
regarding claims will be accurate and complete. Any and all relevant provisions shall be void in
any case of fraud, intentional concealment, or misrepresentation of material fact.
No legal action for a claim may be brought against the Provider until sixty (60) days after the
Provider receives Proof of Loss. No legal action against the Provider may be brought more than
two (2) years after the time for giving Proof of Loss. Further, no legal action may be brought
against the Provider unless all the terms of the Guide to Benefits have been complied with fully.
This benefit is provided to eligible cardholders at no additional cost. The terms and conditions
contained in this Guide to Benefits may be modified by subsequent endorsements. Modifications
to the terms and conditions may be provided via additional Guide to Benefits mailings, statement
inserts, statement messages or electronic notification. The benefits described in this Guide will
not apply to cardholders whose Accounts have been suspended or cancelled.
Termination dates may vary by financial institutions. Your financial institution can cancel or nonrenew the benefits for cardholders, and if they do, they will notify You at least thirty (30) days in
advance. Indemnity Insurance Company of North America (“Provider”) is the underwriter of
these benefits and is solely responsible for its administration and claims. The Benefit
Administrator provides services on behalf of the Provider.
After the Benefit Administrator has paid Your claim, all Your rights and remedies against any
party in respect of this claim will be transferred to the Benefit Administrator to the extent of the
payment made to You. You must give the Benefit Administrator all assistance as may reasonably
be required to secure all rights and remedies.
This benefit does not apply to the extent that trade or economic sanctions or other laws or
regulations prohibit the provision of insurance, including, but not limited to, the payment of
claims.

3|Page

FORM #EWP 10K-50K-3YR – 2017 (04/17)

WM-O

For more information about the benefit described in this guide, call the Benefit
Administrator at 1-800-551-8472 or call collect outside the U.S. at 1-303-967-1096.

4|Page

